No. 20-371

In the Supreme Court of the United States

CARE ALTERNATIVES, PETITIONER,
Vv

UNITED STATES OF AMERICA; STATE OF NEW JERSEY EX
REL. VICTORIA DRUDING, ET AL.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

BRIEF FOR THE CHAMBER OF COMMERCE OF THE UNITED STATES OF
AMERICA AND THE PHARMACEUTICAL RESEARCH AND
MANUFACTURERS OF AMERICA (PhRMA) AS AMICI CURIAE IN SUPPORT OF
PETITIONER

CERTIFICATE OF SERVICE

Thereby certify that on October 23, 2020, a copy of this document was served electronically
on all parties to the above-captioned case, as required by Supreme Court Rule 29.5. All
parties had previously consented in writing to electronic service consistent with this Court’s
order of April 15, 2020.

Paul D. Clement, Ross Begelman
George Hicks Begelman & Orlow P.C.
Kirkland & Ellis LLP 411 Rt. 70 East
1301 Pennsylvania Avenue, NW Suite 245
Washington, DC 20004 Cherry Hill, NJ 08034
paul.clement@kirkland.com ross.begelman@begelmanorlow.com
Counsel for Petitioner Russell Paul
Berger Montague

1818 Market Street, Suite 3600
Philadelphia, PA 19103
rpaul@bm.net

Counsel for Respondents
Jeffrey B. Wall

Acting Solicitor General

Room 5616

DEPARTMENT OF JUSTICE
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriets@USDOJ.gov

I declare under penalty of perjury that the foregoing is true and correct.

Executed on October 23, 2020.

JOHN PYELWooD
Counsel of Record
ARNOLD & PORTER
KAYE SCHOLER LLP
601 Massachusetts Ave., NW
Washington, DC 20001
(202) 942-5000
John.elwood@arnoldporter.com
Counsel for Amici Curiae
